                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

 Case Number: A13040053                                                                      Page 1 of 1


         NSF OIG received an allegation of plagiarism in a pending NSF proposa1. 1 Our analysis
         identified allegedly copied text, so we contacted the Subject2 regarding the allegation. Based on
         his response, we determined the Subject was the original author of the allegedly copied text, and
         that he collaborates frequently with the identified source's author.

         Therefore, there is no evidence to substantiate an allegation of plagiarism. Accordingly, this case
         is closed with no further action taken.




NSF OIG Form 4 (11/02)
